             UNCLASSIFIED




   United States Department of State
and the Broadcasting Board of Governors
       Office of Inspector General


            Office of Audits




     Review of Department of State
     Information Security Program




             AUD/IT-11-07

             November 2010




             UNCLASSIFIED
                                                              L nited States Department of Statf'
                                                              and the Broadcasting Board        or
                                                                                             Governorti

                                                               OJJi(,P of I'lspector Gem'rnl




                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effect ive management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

       In accordance with the Federal Infonnation Security Management Act 0[2002 (FISMA),
OIG performed a review of the Department of State Infonnation Security Program for FY 2010.
To perfonn this review, OIG contracted with the independent public accountant Williams, Adley
& Company, LLP. The report is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents .

        The independent public accountant identified areas in which improvements could be
made, including system inventory, risk management framework, plans of actions and milestones,
security awareness training, security configuration management, remote access, identity and
account management, incident response handling, continuous mon itoring, contingency plans, and
oversi ght of contractor systems.

        OIG evaluated the nature, extent, and timing of the independent public accountant's
work; monitored progress throughout the audit; reviewed supporting documentation; evaluated
key judgments; and perfornled other procedures as appropriate. OIG concurs with the findings,
and the recommendations contained in the report were developed on the basis of the best
knowledge available and were discussed in draft form with those individuals responsible for
implementation. OIG's analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report .



                                       Harold W. Geisel
                                       Deputy Inspector General
~l
l'         j.'
        '~ 11 WILLIAMS
                        ADLEY

                                                                             November 12, 2010


                   Review of Department of State Information Security Program

Office of Inspector General
U.S. Department of State
Washington, DC

Williams, Adley & Company, LLP (referred to as "we" in this letter), is pleased to provide the
Office of Inspector General (OIG) the results of the review of the Department of State
(Department) Information Security Program for FY 2010. We reviewed the Department's
Information Security Program performance in compliance with the Federal Information Security
Management Act and Office of Management and Budget (OMB) and National Institute of
Standards and Technology regulations, standards, and requirements. Additionally, the review was
performed to provide sufficient support for OIG in providing a response to OMB in accordance
with OMB Memorandum M-IO-15, FY 20iO Reporting instructions for the Federal Information
Security Management Act and Agency Privacy Management, dated April 21, 2010.

This review, performed under Contract No. SAQMMAI0F2159, was designed to meet the
objectives identified in Appendix A, "Objectives, Scope, and Methodology," of the report. We
communicated the results of our review and the related findings and recommendations to the
Department's OIG.

We appreciate the cooperation provided by Department personnel during the review.




                                  WILLIAMS, ADLEY & COMPANY-DC, LLP
                            Certified Public Accountants I Management Consultants
          1250 H Street, NW, Suite 1150 • Washington, DC 20005 • (202) 371 -1397    Fax: (202) 371 -9161
                                            www.williamsadley .com
                                                          UNCLASSIFIED




                                                       Table of Contents


                Executive Summary ...................................................................................................... 1
                Background ................................................................................................................... 4
                Results of Review ......................................................................................................... 5
A.              FISMA System Inventory List Contained Retired Systems ......................................... 5
B.              Risk Management Framework Needs To Be Improved ............................................... 5
C.              Plans of Actions and Milestones Were Not Adequately Managed ............................... 6
D.              Security Awareness Training Requirements Were Not Enforced ................................ 8
E.              Security Configuration Management Needs Improvement ........................................ 10
F.              Opennet Everywhere Software Package Had Significant Security Weaknesses ........ 11
G.              Account Management in Active Directory Needs Improvement ............................... 12
H.              Personally Identifiable Information Incidents Were Not Reported Timely................ 14
I.              Continuous Monitoring Program Needs Improvement............................................... 14
J.              Contingency Plans Need To Be Updated.................................................................... 15
K.              Oversight of Contractor Systems Requires Improvement ......................................... 15
List of Recommendations ............................................................................................................. 18
Acronyms .................................................................................................................................... 20
Appendix A. Objectives, Scope, and Methodology ..................................................................... 21
Appendix B. Follow-up of Recommendations From the FY 2009 FISMA Report .................... 23
Appendix C. Department of State Response…………………………………………………….26




                                                          UNCLASSIFIED
                                           UNCLASSIFIED



                                          Executive Summary

        In accordance with the Federal Information Security Management Act of 2002 (FISMA),1
the Office of Inspector General (OIG) contracted with Williams, Adley & Company, LLP
(referred to as “we” in this report), to perform an independent review of the Department of State
(Department) Information Security Program‟s compliance with Federal laws, regulations, and
standards established by FISMA, the Office of Management and Budget (OMB), and the
National Institute of Standards and Technology (NIST). Additionally, the results are designed to
assist OIG in providing a response to OMB Memorandum M-10-15, FY 2010 Reporting
Instructions for the Federal Information Security Management Act and Agency Privacy
Management, dated April 21, 2010.

        We reviewed the Department‟s remedial actions taken to address the FY 2009 reported
Information Security Program control weaknesses identified in OIG‟s FY 2009 report Review of
the Information Security Program at the Department of State. The statuses of the FY 2009
review recommendations are in Appendix B. Since FY 2009, the Department has taken steps to
improve management controls to include the following:

               Updated the Contingency Planning, Certification and Accreditation, and Annual
                Control Assessment Toolkits to provide guidance to system owners.

               Initiated a pilot program for the Plan of Action and Milestones (POA&M) Grading
                Memorandum.

       Overall, we found that the Department has established and is maintaining an information
security program. However, to improve the program and to bring the program into compliance
with FISMA, OMB, and NIST requirements, the Department needs to make significant
improvements to address the following control weaknesses:

            System Inventory List
               The Department‟s inventory management processes and procedures do not ensure that
               retired systems are immediately removed from the inventory of FISMA reportable
               systems. Without an accurate FISMA system inventory list, the Department‟s process
               to support information resources management for technology planning, budgeting, and
               acquisition may be hampered.
            Risk Management Framework
               The security authorization process was not performed on all contractor systems, and
               the security authorization packages had expired for four systems. These conditions
               weaken the Department‟s risk management framework because changes within the
               systems and the systems‟ control environment may introduce new risks and
               vulnerabilities into the Department‟s environment.

1
    Pub. L. No. 107-347, title III.

                                                                                                     1
                                              UNCLASSIFIED


         Plans of Action and Milestones (POA&M)
            The Department did not consistently record required resources for remediation of
            security weaknesses and update remediation schedules to reflect actual performance,
            all of which impeded the Department‟s ability to assess and monitor the progress of
            corrective actions.
         Security Awareness Training and Personnel Security
            The Department did not identify all employees who had significant security
            responsibilities and provide specialized training, as required by NIST.2
         Security Configuration Management
            Twenty-four of 25 Windows systems tested were not compliant with the security
            configuration guidance provided by the Bureau of Diplomatic Security (DS), and
            seven of 25 systems did not have the vendor-required critical or high priority software
            patches to be installed. Without sufficient configuration management, the
            Department‟s data may be exposed to loss of integrity and confidentiality because
            configuration standards may not be implemented.
      (b)(2)(b)(5)




         Account and Identity Management Program
            From a population of approximately 83,000 Active Directory4 accounts, we found
            approximately 1,000 guest, test, and temporary accounts; 8,000 accounts that had not
            been used (never logged on); and 600 accounts that had passwords that were set so that
            they would not expire. Therefore, these accounts are susceptible to being compromised
            by unauthorized users for unauthorized purposes.
         Personally Identifiable Information Incidents
            We found six instances in which the Department did not report personally identifiable
            information (PII) data incidents to the Department of Homeland Security‟s U.S.
            Computer Emergency Readiness Team (US-CERT) within 1 hour of suspecting or
            confirming a security breach, as required by OMB. Failure to notify US-CERT within
            the required timeframe increases the risk to individuals that their PII data may be
            misused. Also, the Department may be in violation of Federal law.




2
  NIST SP 800-16, “Information Technology Training Requirements: Role- and Performance-Based Model.”
3
  NIST SP 800-67, “Recommendation for the Triple Data Encryption Algorithm (TDEA) Block Cipher.”
4
  Active Directory is a technology created by Microsoft that provides a variety of network services such as
identification and authentication, directory access, and other network services.

                                                                                                              2
                                               UNCLASSIFIED


          Continuous Monitoring
            The scanning tools do not assess the Oracle configuration, the Department‟s most
            common database system, for configuration control weaknesses, which could
            adversely impact application access controls.
            Scanning results for routers, firewalls, and Demilitarized Zone servers were not
            available in iPost;5 therefore, the results were not used in risk scoring.
          Contingency Planning

            A contingency plan did not exist for one system, and the Department had not
            performed a continuity of operations test of that system. Without testing the
            contingency plan at the system level, the Department cannot evaluate the plan‟s overall
            effectiveness, identify significant weaknesses, and ensure that corrective actions are
            taken.

          Oversight of Contractors
            A contract for one contractor system did not contain the required information security
            clauses from Department of State Acquisition Regulations (DOSAR). The lack of
            information security requirements increases the risk that contractor systems possess
            inadequate security controls and make other Department software and hardware
            vulnerable to unauthorized access, use, disclosure, disruption, modification, or
            destruction.
            The Department did not have an effective mechanism in place to identify the total
            number of contractors who had access to and privileges within the Department‟s
            network, applications, databases, and data. As a result, the Department could not
            accurately determine whether contractor personnel had received the required
            information security awareness training and had gone through the proper security
            clearance process.
        Although this report contains 15 recommendations to the Department, the most
significant recommendations are highlighted as follows:

          Ensure that contractor systems go through the security authorization process, including
         completion of a risk assessment and implementation of necessary security controls.

          Develop a process to periodically review the POA&Ms to ensure that the needed
         resources, including the costs of goods and personnel, required to remediate security
         weaknesses are accurately recorded and accurate milestones and planned actions are
         documented.

          Define and identify personnel who have significant security responsibilities and
         ensure that they receive appropriate training.

5
 iPost is a system that provides the ability to monitor outputs of the various network monitoring applications. It
allows key personnel to monitor network, computer, and application resources; check for potential problems; initiate
corrective actions; and gather performance, compliance, and security data for near real-time and historical reporting.

                                                                                                                     3
                                            UNCLASSIFIED



         Ensure that the Department completes the end-to-end configuration management
        initiative, including implementation of the standard operating environment.

         Install an NIST-approved encryption algorithm that controls access to OpenNet
        Everywhere (ONE).6 Also, procedures should be established to efficiently and effectively
        identify the total number of contractor personnel who have access to the Department‟s
        systems.

        We provided copies of the draft report to Department officials on October 29, 2010, and a
revised draft on November 5, 2010. In its November 8, 2010, response (see Appendix C) to the
draft report, the Department generally concurred with nine recommendations but did not indicate
concurrence or nonconcurrence with six recommendations. Based on the response, OIG
modified two recommendations (Nos. 3 and 12), both of which are considered resolved, pending
further action. Also based on the response, OIG considers 10 additional recommendations
resolved, pending further action; two recommendations closed; and one recommendation
unresolved.

        The Department‟s responses to the recommendations and OIG‟s replies to the responses
are presented after each recommendation.

                                              Background
        FISMA recognized the importance of information security to the economic and national
security interests of the United States. FISMA requires each Federal agency to develop,
document, and implement an agency-wide program to provide information security for the
information systems that support the operations and assets of the agency, including those
provided or managed by another agency, contractor, or other source. FISMA provides a
comprehensive framework for establishing and ensuring the effectiveness of management,
operational, and technical controls over IT that supports Federal operations and assets, and it
provides a mechanism for improved oversight of Federal agency information security programs.

        FISMA assigns specific responsibilities to Federal agencies, NIST, and OMB in order to
strengthen information system security. In particular, FISMA requires the head of each agency
to implement policies and procedures to cost effectively reduce IT security risks to an acceptable
level. To ensure the adequacy and effectiveness of information system controls, FISMA requires
agency program officials, chief information officers, senior agency officials for privacy, and
inspectors general to conduct annual reviews of the agency‟s information security program and
report the results to OMB.

       On an annual basis, OMB provides guidance with reporting categories and questions for
meeting the current year‟s reporting requirements. OMB uses this data to assist in its oversight
responsibilities and to prepare its annual report to Congress on agency compliance with FISMA.

6
 OpenNet Everywhere (ONE) is a program that allows users to access OpenNet from any computer with an Internet
connection, allowing access to email and Intranet resources.

                                                                                                            4
                                        UNCLASSIFIED


                                      Results of Review
        Overall, based on our review, we concluded that the Department had established and is
maintaining an Information Security Program. However, the Department needs to make
significant improvements to address the control weaknesses noted to improve the program and to
bring the program into compliance with FISMA, OMB, and NIST requirements.

   A. FISMA System Inventory List Contained Retired Systems
        We found that the Department did not maintain an accurate inventory of FISMA-
reportable systems. Specifically, both the third and the fourth quarter FISMA inventory lists
consisted of six systems that were designated as retired systems in the ITAB. The six systems
are Case Management System, Compliance Analysis & Tracking System, Cultural Connect
Envoys Workflow, Post Exchange Visitor Database, Exchanges Information System, and Gifts
Tracking Database. OMB Memorandum M-10-15 states that all of the agency‟s information
systems should be included as part of the FISMA inventory report.

       The inventory was inaccurate because the ITAB team did not consult with the Bureau of
Information Resource Management, Office of Information Assurance (IRM/IA), on the FISMA-
reportable systems that were being retired. In addition, IRM/IA officials manually reconciled the
FISMA inventory report to the ITAB reports, which resulted in errors that may not have occurred
under electronic processes.

       Without an accurate FISMA system inventory list, the Department‟s process to support
information resources management for technology planning, budgeting, and acquisition may be
hampered.

       Recommendation 1. We recommend that the Chief Information Officer verify the
       Federal Information Security Management Act systems inventory list to the Information
       Technology Asset Baseline to ensure that all information technology systems are
       accurately accounted for.

       Management Comments: The Department concurred with the recommendation, stating
       that it “expect[s] to remove the retired systems in the FISMA inventory in the next
       quarter in which action such as an annual test or security authorization is required for that
       system.”

       OIG Analysis: Based on the response, OIG considers the recommendation resolved.
       This recommendation can be closed when OIG reviews and accepts documentation
       showing that the retired systems have been removed from the FISMA inventory.

   B. Risk Management Framework Needs To Be Improved
       The Department‟s risk management framework includes an enterprise-wide security
authorization process and ongoing efforts to use automated tools for continuous monitoring.


                                                                                                   5
                                                UNCLASSIFIED


However, we found weaknesses related to the security authorization process, including the
security authorization packages.

     (b)(2)(b)(5)
                                                                                                         7
                                                                                          The
         security authorization process was not performed for contractor systems because the
         current Certification and Accreditation Toolkit (a procedure) does not require a separate
         security authorization for unclassified systems that are rated low impact and low cost.
         OMB Memorandum M-10-15 states that security controls “are required for all federal
         information systems” and that the security controls “must be assessed against the same
         NIST criteria and standards as if they were a Government-owned or –operated system.”

        Also, of a sample of 30 systems, we found that security authorization packages8 for four
         systems (b)(2)(b)(5)

                                   had expired on May 31, 2010, which exceeded their 3-year
         timeframe for authorization to process in accordance with OMB Circular A-130,
         Appendix III.9 Officials from IRM/IA stated that the four security packages had expired
         because of contractual issues with the vendor, which delayed the security testing and
         impacted the timelines of the security authorization process.

        The lack of current security authorization packages weakens the Department‟s
risk management framework because changes within the systems and the systems‟
control environment may introduce new risks and vulnerabilities into the Department‟s
environment.

         Recommendation 2. We recommend that the Chief Information Security
         Officer ensure that systems operated by a contractor, including systems rated
         low cost and low impact, go through the security authorization process,
         including completion of a risk assessment and implementation of necessary
         security controls, and that security authorization packages are completed on a
         timely basis.

         Management Comments: In its response, the Department requested that references to
         low-cost and/or low-impact systems be removed because NIST SP 800-37 “gives federal
         agencies considerable discretion in the selection of system accreditation boundaries” and
         OMB A-130, Appendix III, “only requires certification and accreditation . . . for major

7
  A system is considered high cost if any one of the following conditions is true: (a) The system is a general support
system, (b) the system is an OMB A-11 Exhibit 300 submission or its components, (c) the system requires more than
four full-time-equivalent staff in a single year, or (d) the total costs are more than $2 million in a fiscal year. If a
system‟s cost does not meet any of these criteria, it is considered low cost.
8
  The security authorization package contains key documents such as the security plan, security assessment report,
and POA&Ms (if applicable).The senior organization official uses content from the security authorization package
and input from key officials to make a security authorization decision.
9
  OMB Circular A-130, Management of Federal Information Resources, app. 3, Security of Federal Automated
Information Resources.

                                                                                                                      6
                                      UNCLASSIFIED


       information systems.” The Department further stated that it had included low impact and
       low cost systems within the accreditation boundary of the systems on which they run.

       OIG Analysis: OMB Memorandum M-10-15 states, “Smaller „systems‟ and
       „applications‟ [which are not major applications or general support systems] may be
       included as part of the assessment of a larger system-as allowable in NIST guidance and
       provided [that] an appropriate risk assessment is completed and security controls are
       implemented.” Subsequent inquiries indicated that security assessments were not
       conducted on the three contractor systems during FY 2010. Since the Department did not
       address the issue of security assessments for the contractor systems, OIG considers the
       recommendation unresolved. This recommendation can be considered resolved when the
       Department shows that the contractor systems were tested as part of a major application
       or general support system and the security application packages have been completed for
       the four systems.

   C. Plans of Action and Milestones Were Not Adequately Managed
       We found that the Department had not adequately developed a POA&M process. OMB
Memorandum M-02-01, Guidance for Preparing and Submitting Security Plan of Action and
Milestones, states that POA&Ms should include the estimated funding resources required to
resolve the weakness as well as the anticipated source of funding. The original milestone
completion date should not be changed, but a new completion date should be added instead.
Further, this guidance requires the POA&M to also identify other non-funding obstacles and
challenges to resolve the weakness, for example, the lack of personnel or expertise or
development of a new system to replace insecure legacy systems.

       The purpose of the POA&M is to assist agencies in identifying, assessing, prioritizing,
and monitoring the progress of corrective actions for security weaknesses found in programs and
systems. The POA&M is used by OMB to assist in its oversight responsibilities and to inform
the budget process.

        As part of its efforts to improve the POA&M process, IRM/IA has a pilot program that
issues POA&M report memorandums to bureaus and offices. However, we found that the
Department had not taken the following actions required by OMB:

          Consistently recorded required resources for remediation of security weaknesses.

          Updated remediation schedules to reflect actual performance. Specifically, five of 13
           security weaknesses tested were 120 or more days behind schedule, and the milestone
           changes, if applicable, were not recorded.

       These conditions occurred because the Department had not consistently reviewed and
maintained POA&M corrective actions for security weaknesses.




                                                                                               7
                                          UNCLASSIFIED


        OMB10 requires the cost to close actions to be tracked, including the cost of resources
required, and a determination to be made as to whether the costs are already within the budget.
The cost to close actions should also include all goods (things) and services (people) needed to
close the action. Without the proper review and maintenance of POA&M activities, IT
management may not be aware of the status of corrective actions. As a result, delays in the
implementation of corrective actions may not be appropriately identified and resolved in a timely
manner.

       Recommendation 3. We recommend that the Chief Information Officer develop a
       process to periodically update the resources recorded in the plans of action and milestones
       (POA&M) and that it update, in the POA&Ms, those completion dates for corrective
       actions that have expired.

        Management Comments: The Department stated, “Given the changes to reporting
        requirements under CyberScope [the CyberScope web application supports an OMB
        initiative to automate collection and reporting of FISMA requirements], the Department
        will seek [Department of Homeland Security] . . . clarification on the desired timeliness
        and level of aggregation of these updates.”

        OIG Analysis: Based on the response, OIG modified this recommendation to delete
        reference to POA&M prioritization. This recommendation can be closed when OIG
        reviews and accepts documentation showing the process the Department has developed
        regarding updates in the POA&Ms.

     D. Security Awareness Training Requirements Were Not Enforced
       In the FY 2009 FISMA review, OIG reported that the Student Training Management
System (STMS) does not track courses that employees take annually to meet continuing
professional education requirements. In addition, management did not receive a report
periodically showing which training courses employees who had significant security
responsibilities had attended.

       The Department is working to address the findings identified in the FY 2009 FISMA
review. For example, IRM/IA, DS, and FSI have reestablished the Awareness, Training,
Education, and Professionalism Working Group, which addresses both the awareness training
and the training of staff who have significant IT security responsibilities.

       However, during the 2010 FISMA review, we found that the Department did not identify
all employees who had significant security responsibilities and had not provided all of those
employees with specialized training, as required by NIST SP 800-16.11

      By not properly training its employees who have significant security responsibilities, the
Department increases its risk of security incidents, breaches, or loss of sensitive data. Training

10
   OMB Memorandum M-04-25, FY 2004 Reporting Instructions for the Federal Information Security Management
Act.
11
   NIST SP 800-16, “Information Technology Training Requirements: Role- and Performance-Based Model.”

                                                                                                        8
                                       UNCLASSIFIED


enhances the awareness of all personnel and ensures the protection of the Department‟s
information systems.

       Recommendation 4. We recommend that the Chief Information Officer, the Foreign
       Service Institute, and the Bureau of Diplomatic Security implement methods to enforce
       the security awareness policy to suspend a user‟s access if the user has not taken the
       Cyber Security Awareness course within the required timeframe.

       Recommendation 5. We recommend that the Chief Information Officer, the Foreign
       Service Institute, and the Bureau of Diplomatic Security complete the Department of
       State‟s corrective action plan (which involves Active Directory, security awareness
       completion data, and iPost) to enforce the security awareness policy to suspend a user‟s
       access if the Cyber Security Awareness course is not taken within the required timeframe.

       Management Comments and OIG Analysis: The Department provided additional
       information for Recommendations 4 and 5 showing that only one user had not taken the
       required security awareness training. Based on the response, OIG considers both
       recommendations closed.

       Recommendation 6. We recommend that the Chief Information Officer and the Bureau
       of Diplomatic Security define and identify personnel who have significant security
       responsibilities and ensure that they receive the appropriate training. Also, the Student
       Training Management System should be modified to capture other training systems, such
       as those paid for by the Department of State, to meet continuing professional education
       requirements.

       Management Comments: The Department agreed with the recommendation, stating
       that DS will have “primary responsibility for identification of personnel with significant
       security responsibility” and that IRM “will be consulted for policy guidance.” The
       Department further stated that DS had set aside funding in FY 2011 to conduct an
       analysis of the best method for identifying and tracking personnel with significant
       security responsibility and that the Department will use existing resources, such as STMS
       and a Bureau of Human Resources system (GEMS), “to determine the most cost-effective
       method of extracting and presenting relevant data from these systems” after the personnel
       with significant security responsibility have been identified.

       OIG Analysis: Based on the response, OIG considers the recommendation resolved.
       This recommendation can be closed when OIG reviews and accepts documentation
       showing that personnel with significant security responsibility have been identified and
       trained and that STMS has been modified to capture the information requested.




                                                                                                  9
                                            UNCLASSIFIED


     E. Security Configuration Management Needs Improvement

       In the FY 2009 FISMA review, OIG reported that the implementation and monitoring of
configuration management controls, including the scanning process, were decentralized and were
shared among bureaus, ISSOs, and IRM/IA. Furthermore, the prior year‟s review found that
more than half of the 23 in-scope systems reviewed had exceptions. The Chief Information
Officer has been working on addressing the findings identified in the FY 2009 FISMA review.
For example, the Department is drafting guidance on cyber security architecture, which will
include the current need for strong configuration management. In addition, the Department is
working on an initiative for end-to-end configuration management, which will provide a secure
operating environment, centralized management of enterprise workstations and server
configurations, and implementation of central patch management.

       Although the Chief Information Officer is taking actions, we found deficiencies in the
configuration management process as follows:

           Of a sample of 25 systems, 24 systems were not fully compliant with the security
            configuration guidance provided by DS. For example, some systems did not contain
            the registry settings12 required by DS. For all systems that had deficiencies, there
            was no evidence of exceptions or waivers by the Chief Information Security Officer.
            According to the FAM,13 system owners are required to obtain approval from the
            Chief Information Security Officer for waivers, exceptions, and deviations from
            information security controls. In addition, the FAM14 requires hardware and software
            to be “approved and configured in accordance with Department security
            configuration guidelines.”

           Of another sample of 25 systems, seven systems did not have the vendor-required
            critical or high priority software patches installed.

       FISMA requires each agency to develop minimally acceptable system configuration
requirements and ensure compliance with them. Standard security configurations provide a
baseline level of security, reduce risk from security threats and vulnerabilities, and save time and
resources.

         Responsibility for the implementation of configuration management controls for the
systems, operating systems, databases, and network, including the scanning process, was
decentralized because of the IT architecture. Even though DS and IRM may identify security
configuration deficiencies and out-of-date software patches, the system owners are responsible
for the operations to bring their systems into compliance. To correct these weaknesses, the
Department is in the process of implementing the end-to-end configuration management
initiative, which includes a standard operating environment to support development of strong

12
   Registry settings store the configuration settings and options on Microsoft Windows systems.
13
   5 FAM 1065.3-2, “Requests for Waivers, Exceptions, and Deviations.”
14
   12 FAM 625.2, “Administrative Security,” and 12 FAM 635.2,” Administrative Security: Authorized Use of
Microcomputers.”

                                                                                                            10
                                             UNCLASSIFIED


configuration management plans for the computing environments commonly used throughout the
Department.

       Configuration management controls allow agencies to improve system performance,
decrease operating costs, and ensure public confidence in the confidentiality, integrity, and
availability of Government information. Without sufficient configuration management, the
Department‟s data may be exposed to loss of integrity and confidentiality because configuration
standards may not be implemented.

           Recommendation 7. We recommend that the Chief Information Officer complete the
           end-to-end configuration management initiative, including implementation of the
           standard operating environment.

           Management Comments: The Department agreed with the recommendation, stating that
           patch management had been centralized to more than half of the Department, with “full
           coverage” scheduled for completion in FY 2011. The Department further stated,
           “Automated enforcement of configuration standards is . . . being piloted with broader
           deployment expected over the next two fiscal years.”

           OIG Analysis: Based on the response, OIG considers the recommendation resolved.
           The recommendation can be closed when OIG reviews and accepts documentation
           showing that the end-to-end configuration management initiative has been implemented.

       F. OpenNet Everywhere Software Package Had Significant Security
          Weaknesses
      OpenNet Everywhere (ONE) is a program that allows users to access OpenNet from any
computer with an Internet connection, allowing access to email and Intranet resources.
(b)(2)(b)(5)




           (b)(2)(b)(5)




        For 19 of 25 employees tested, the Department did not maintain approval documentation
to support supervisory approval of remote access privileges. The FAM17 states, “A U.S. citizen
direct-hire supervisor and either management officer or executive director must: (1) Approve in
writing all requests for remote access by individual users.”

     (b)(2)(b)(5)



17
     12 FAM 682.2-2, “Remote Access Management Responsibilities.”

                                                                                               11
                                         UNCLASSIFIED



       In addition, the Department did not maintain documentation that supported the electronic
authentication level assessment for ONE. OMB Memorandum M-04-04, E-Authentication
Guidance for Federal Agencies, requires agencies to review new and existing electronic
transactions to ensure that authentication processes provide the appropriate level of assurance.

          (b)(2)(b)(5)




       In addition, the Department did not follow its policy to approve in writing all user
requests for remote access.

          (b)(2)(b)(5)




          Recommendation 8. We recommend that the Chief Information Officer (b)(2)(b)(5)


                                                                            and document the
          necessary risk assessment to determine the electronic authentication level for ONE.

          Management Comments: The Department concurred with the recommendation, stating
          that ONE will be replaced by a new system, Global OpenNet, (b)(2)(b)(5)


          OIG Analysis: Based on the response, OIG considers this recommendation resolved.
          (b)(2)(b)(5)




      G. Account Management in Active Directory Needs Improvement
        The Department needs to improve account management procedures and processes in
Active Directory, which is used to manage all network users‟ accounts. For example, we found
three active accounts for 25 separated personnel. According to the FAM,18 personnel officers

18
     12 FAM 621.3-3, “System Access.”

                                                                                                12
                                               UNCLASSIFIED


must notify the data center manager, the system manager, and the ISSO immediately of any
employee or contractor who has access to the system whose employment is being terminated for
any reason so that access privileges can be revoked. In addition, from a population of
approximately 83,000 Active Directory accounts, we found the following:
           Approximately 1,000 guest, test, and temporary accounts. The FAM19 requires the
            removal of default user accounts and passwords. The FAM 20states that the
            Department may not maintain permanent user accounts and passwords on systems for
            visitors, training, demonstrations, or other purposes.
           Approximately 8,000 accounts that have not been used (never logged on). The FAM21
            requires user privileges to be reviewed annually to verify that privileges are still
            appropriate.
           Approximately 600 accounts with passwords set not to expire. The FAM22 requires
            passwords to be changed at least every 60 days.
       The Active Directory weaknesses occurred because the Department did not perform an
annual review and recertification of users‟ privileges. In addition, the Active Directory
administrator did not use the Active Directory automated account management tools to identify
accounts that had not been used for an extended period of time.

        As a result of these weaknesses, the Department increases its risk that guest, test,
temporary accounts, and active accounts that are no longer needed may be used by unauthorized
users for unauthorized purposes. Additionally, accounts set with passwords that do not expire
increases the potential for an account password to be obtained by unauthorized users.

        Recommendation 9. We recommend that the Chief Information Officer enhance the
        Active Directory account management automated tools to flag accounts that have not
        been used within the past 60 days and ensure that all accounts are configured with
        passwords that expire every 60 days.

        Recommendation 10. We recommend that the Chief Information Officer ensure that
        program managers and office managers annually review access privileges of users under
        their supervision so that the number of guest, test, and temporary accounts and accounts
        that have not been used is reduced.

        Management Comments: IRM concurred with both recommendations, stating
        that the continuous monitoring approach (described in Finding I) will include
        accounts with passwords set to expire in 60 days and passwords set never to
        expire. The Department further stated that accounts not compliant with this
        standard “negatively impact site scores” and that the “‟manager‟ field in Active
        Directory identifies the individual responsible for all accounts.”


19
   12 FAM 629.2-2, “Administrative Security”
20
   12 FAM 622.1-3, “Password Controls.”
21
   Ibid.
22
   Ibid.

                                                                                                13
                                       UNCLASSIFIED


       OIG Analysis: Based on the response, OIG considers both recommendations resolved.
       These recommendations can be closed when OIG reviews and accepts documentation
       showing that the continuous monitoring program includes accounts with passwords
       exceeding 60 days and passwords set to never to expire.

   H. Personally Identifiable Information Incidents Were Not Reported
      Timely
       We found six of 10 instances in which the Department did not report PII data incidents to
the US-CERT within 1 hour of suspecting or confirming a security breach, as required by OMB
Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable Information and
Incorporating the Cost for Security in Agency Information Technology Investments.
Memorandum M-06-19 requires agencies to report all incidents involving PII to the US-CERT
within 1 hour of discovering an incident. The memorandum also clarifies that the reporting of all
incidents involving PII should be in electronic or physical form and should not distinguish
between suspected and confirmed breaches.

       However, failure to notify US-CERT within the required timeframe increases the risk to
individuals that their PII data may be misused. Additionally, the Department may be in violation
of Federal law because of untimely notification of PII incidents.

       Recommendation 11. We recommend that the Bureau of Diplomatic Security
       implement proper staff awareness through training and have shift supervisors, as part of
       the shift-change procedures, ensure that personally identifiable information data incidents
       are reported to the U.S. Computer Emergency Readiness Team within the required 1-hour
       timeframe.

       Management Comments: In its response to the recommendation, the Department stated
       that it is “committed to meeting the requirement of reporting PII data incidents to US-
       CERT” in accordance with “Department policy . . . and the Computer Incident Response
       Team‟s (CIRT) standard operating procedures.” The Department further stated that the
       CIRT has assigned an analyst who will monitor the incident in-box for PII reports and
       assign incoming PII reports‟ priority status for evaluation. In addition, according to the
       Department, DS is continuing to develop its new “ticket tracking database,” which will
       enable CIRT “to automatically designate incoming PII reports priority status.”

        OIG Analysis: Based on the response, OIG considers the recommendation resolved.
       This recommendation can be closed when OIG reviews and accepts documentation
       showing that PII incidents are being sent to US-CERT within the 1-hour timeframe.

   I. Continuous Monitoring Program Needs Improvement
        To fulfill OMB and NIST continuous monitoring requirements, the Department is taking
actions by using iPost to monitor its security controls, implement configuration management, and
report on security status to appropriate Department officials. iPost routinely makes scanning
results available to system owners, and the risk scoring reports and associated quarterly

                                                                                                14
                                              UNCLASSIFIED


notifications to responsible system owners raise the visibility of configuration management
weaknesses and provided plans for correction.

       However, as identified in the FY 2009 FISMA review, continuous monitoring controls
did not address the following significant risks:
              The scanning tools do not assess the Oracle configuration, the Department‟s most
               common database system, for configuration control weaknesses, which could
               adversely impact application access controls.
              Scanning results for routers, firewalls, and Demilitarized Zone servers were not
               available in iPost; therefore, these results were not used in risk scoring.
      As stated in NIST‟s “Frequently Asked Questions: Continuous Monitoring, June 1,
          23
2010,” organizations are required to develop a continuous monitoring strategy for their
information systems and environments in which those systems operate.

       Because of the lack of an enterprise-wide continuous monitoring strategy, security
weaknesses of relevant IT components, such as databases and network devices, were not
included in iPost.

        A rigorous and well-executed continuous monitoring program significantly reduces the
level of effort required for the reauthorization of the information system. Continuous monitoring
activities are scaled in accordance with the security categorization of the information system.
Senior officials can use this information to take appropriate risk mitigation actions and make
cost-effective, risk-based decisions regarding the operation of their respective information
systems.

           Recommendation 12. We recommend that the Chief Information Officer include, under
           its continuous monitoring program scanning results for databases, firewalls, routers, and
           switches and include the results in the Risk Scoring Program dashboard.

           Management Comments: In its response to the recommendation, the Department stated
           that documentation supporting the continuous monitoring strategy had been provided to
           OIG.

           OIG Analysis: Based on the response, OIG considers the recommendation resolved. The
           recommendation can be closed when OIG reviews and accepts documentation showing
           that the Risk Scoring Program dashboard includes the systems components shown in the
           recommendation.

       J. Contingency Plans Need To Be Updated
       We found that a contingency plan did not exist for the State Messaging and Archive
Retrieval Toolset (SMART) system and that the Department had not performed a continuity of


23
     NIST SP 800-37, rev. 1, “Guide for Applying the Risk Management Framework to Federal Information Systems.”

                                                                                                             15
                                            UNCLASSIFIED


operations test of the SMART system. According to the FAM,24 the data center manager and the
system manager must update each contingency plan annually or when major modifications
occur.

        According to the Bureau of Administration, Office of Emergency Management, the
Continuity of Operations–Communications Plan is undergoing revision. The plan was evaluated
and discussed during an OIG inspection25 and by the Department of Homeland Security‟s
Federal Emergency Management Agency during Continuity Exercise Eagle Horizon 2010. The
SMART contingency plan is still in draft form because a secondary (or backup) site for SMART
has not been identified, causing the delay in finalizing the contingency plan.

        Without testing the contingency plan at the system level, the Department cannot evaluate
the plan‟s overall effectiveness, identify significant weaknesses, and ensure that corrective
actions are made.

        Recommendation 13. We recommend that the Chief Information Officer identify the
        secondary site for the State Messaging and Archive Retrieval Toolset (SMART) system
        and complete development of the SMART‟s system contingency plan.

        Management Comments: The Department concurred with the recommendation, stating
        that a secondary site had been identified and the completed contingency plan and
        contingency system would be developed and tested by September 2011.

        OIG Analysis: Based on the response, OIG considers the recommendation resolved.
        This recommendation can be closed when OIG reviews and accepts documentation
        showing that the contingency plan and system were tested by the date specified.

     K. Oversight of Contractor Systems Requires Improvement
        The Department did not consistently maintain required documentation for contractor
systems; for example, a contract for one system did not contain the required information security
clauses from the DOSAR. The DOSAR26 states that all offers and bids submitted in response to
solicitations must address the approach for completing the security plan and certification and
accreditation requirements as required.

        We also found that the Department did not have an effective mechanism in place to
identify the total number of contractors who had access to and privileges within the
Department‟s network, applications, databases, and data. According to OMB Memorandum M-
10-15, “Agencies must develop policies for information security oversight of contractors and
other users with privileged access to Federal data. Agencies must also review the security of
other users with privileged access to Federal data and systems.”



24
   12 FAM 622.3-2, “Contingency Plan Preparation.”
25
   The Bureau of Administration’s Office of Emergency Management (ISP-I-10-43, July 2010).
26
   DOSAR 652.239-70, “Information Technology Security Plan and Accreditation.”

                                                                                               16
                                       UNCLASSIFIED


        The process to provide oversight to contractor systems and personnel by bureaus and
offices is decentralized, and the system to provide better contractor oversight has not been
completed. For instance, to obtain information on the total number of contractor personnel,
personnel from each bureau and office would have to be contacted. DS and the Bureau of
Human Resources began collaboration on the development of the Contractor Personnel Support
System. According to DS, once the system is fully implemented and integrated with other
systems, it will provide more contractor oversight information for the Department.

       The lack of information security requirements increases the risk that contractor systems
have security controls that are inadequate and makes other Department software and hardware
vulnerable to unauthorized access, use, disclosure, disruption, modification, or destruction.
Additionally, without adequate contractor oversight, the Department has minimal assurance that
the contractor‟s information security controls are compliant with FISMA, OMB requirements,
and NIST standards.

       Without an effective mechanism to identify and track contractor personnel who have been
granted access and privileges within the Department‟s network and access to the Department‟s
software, data, and databases, the Department cannot accurately assess whether contractor
personnel have received the required information security awareness training and have gone
through the proper security clearance process.

       Recommendation 14. We recommend that the Bureau of Administration review all
       relevant information technology and professional services contracts to ensure that they
       contain the required Department of State Acquisition Regulations information security
       clauses.

       Recommendation 15. We recommend that the Bureau of Diplomatic Security, in
       coordination with the Bureau of Administration, establish procedures to identify the total
       number of contractors who have access to Department of State systems.

       Management Comments: In its response, the Department agreed with both
       recommendations, stating that the Bureau of Administration will review contract
       processes to ensure that contracts are reviewed before they are signed and that a copy of
       the updated Quality Assurance Plan will be provided to OIG. The Department further
       stated that the CIO had developed a procedure to use Active Directory accounts to
       identify the total number of individuals (including contractors) who have access to the
       Department‟s network and that compliance with this procedure, which is being enforced
       by the site scoring process, had begun on November 1, 2010.

       OIG Analysis: Based on the response, OIG considers both recommendations resolved.
       These recommendations can be closed when OIG reviews and accepts documentation
       showing that the contracts contain the required DOSAR clauses and verifies that the
       Department can identify the total number of contractors who have access to the
       Department‟s network.




                                                                                                 17
                                       UNCLASSIFIED



                                List of Recommendations
Recommendation 1. We recommend that the Chief Information Officer verify the Federal
Information Security Management Act systems inventory list to the Information Technology
Asset Baseline to ensure that all information technology systems are accurately accounted for.

Recommendation 2. We recommend that the Chief Information Security Officer ensure that
systems operated by a contractor, including systems rated low cost and low impact, go through
the security authorization process, including completion of a risk assessment and implementation
of necessary security controls, and that security authorization packages are completed on a
timely basis.

Recommendation 3. We recommend that the Chief Information Officer develop a process to
periodically update the resources recorded in the plans of action and milestones (POA&M) and
that it update, in the POA&Ms, those completion dates for corrective actions that have expired.

Recommendation 4. We recommend that the Chief Information Officer, the Foreign Service
Institute, and the Bureau of Diplomatic Security implement methods to enforce the security
awareness policy to suspend a user‟s access if the user has not taken the Cyber Security
Awareness course within the required timeframe.

Recommendation 5. We recommend that the Chief Information Officer, the Foreign Service
Institute, and the Bureau of Diplomatic Security complete the Department of State‟s corrective
action plan (which involves Active Directory, security awareness completion data, and iPost) to
enforce the security awareness policy to suspend a user‟s access if the Cyber Security Awareness
course is not taken within the required timeframe.

Recommendation 6. We recommend that the Chief Information Officer and the Bureau of
Diplomatic Security define and identify personnel who have significant security responsibilities
and ensure that they receive the appropriate training. Also, the Student Training Management
System should be modified to capture other training systems, such as those paid for by the
Department of State, to meet continuing professional education requirements.

Recommendation 7. We recommend that the Chief Information Officer complete the end-to-end
configuration management initiative, including implementation of the standard operating
environment.

Recommendation 8. We recommend that the Chief Information Officer install an NIST-
approved encryption algorithm that controls access to support controls access to OpenNet
Everywhere (ONE), reconfigure the ONE session timeout setting to 20 minutes, retain remote
access authorization forms to show supervisory approval, and document the necessary risk
assessment to determine the electronic authentication level for ONE.

Recommendation 9. We recommend that the Chief Information Officer enhance the Active
Directory account management automated tools to flag accounts that have not been used within

                                                                                                  18
                                        UNCLASSIFIED


the past 60 days and ensure that all accounts are configured with passwords that expire every 60
days.

Recommendation 10. We recommend that the Chief Information Officer ensure that program
managers and office managers annually review access privileges of users under their supervision
so that the number of guest, test, and temporary accounts and accounts that have not been used is
reduced.

Recommendation 11. We recommend that the Bureau of Diplomatic Security implement
proper staff awareness through training and have shift supervisors, as part of the shift-change
procedures, ensure that personally identifiable information data incidents are reported within the
required 1-hour timeframe.

Recommendation 12. We recommend that the Chief Information Officer include, under its
continuous monitoring program scanning results for databases, firewalls, routers, and switches
and include the results in the Risk Scoring Program dashboard.

Recommendation 13. We recommend that the Chief Information Officer identify the secondary
site for the State Messaging and Archive Retrieval Toolset (SMART) system and complete
development of the SMART‟s system contingency plan.

Recommendation 14. We recommend that the Bureau of Administration review all relevant
information technology and professional services contracts to ensure that they contain the
required Department of State Acquisition Regulations information security clauses.

Recommendation 15. We recommend that the Bureau of Diplomatic Security, in coordination
with the Bureau of Administration, establish procedures to identify the total number of
contractors who have access to Department of State systems.




                                                                                                 19
                                UNCLASSIFIED



                                   Acronyms

Department   U.S. Department of State
DOSAR        Department of State Acquisition Regulations
DS           Bureau of Diplomatic Security
FIPS         Federal Information Processing Standards
FISMA        Federal Information Security Management Act
IRM/IA       Bureau of Information Resource Management, Office of Information
             Assurance
ISSO         Information System Security Officer
IT           information technology
ITCCP        Information Technology Change Control Board
ITSP         Information Technology Strategic Plan
NIST         National Institute of Standards and Technology
OIG          Office of Inspector General
OMB          Office of Management and Budget
ONE          OpenNet Everywhere
PII          personally identifiable information
POA&M        Plan of Action and Milestones
SMART        State Messaging and Archive Retrieval Toolset
US-CIRT      U.S. Computer Information Readiness Team
US-CERT      U.S. Computer Emergency Readiness Team




                                                                                20
                                       UNCLASSIFIED


                                                                                    Appendix A

                         Objectives, Scope, and Methodology

       In order to fulfill its responsibilities related to the Federal Information Security
Management Act (FISMA), the Office of Inspector General (OIG) contracted with Williams,
Adley & Company, LLP (referred to as “we” in this appendix), an independent public
accountant, to review the Department of State‟s information security program and practices to
determine the effectiveness of such programs and practices for FY 2010.

       FISMA requires each Federal agency to develop, document, and implement an agency-
wide program to provide information security for the information systems that support the
operations and assets of the agency, including those provided or managed by another agency,
contractor, or other source. To ensure the adequacy and effectiveness of these controls, FISMA
requires the agency inspector general or an independent external auditor to perform annual
reviews of the information security program and to report those results to the Office of
Management and Budget (OMB). OMB uses this data to assist in oversight responsibilities and
to prepare its annual report to Congress regarding agency compliance with FISMA.

        We conducted the review from June through September 2010. In addition, we performed
the review in accordance with FISMA, OMB, and NIST guidance. We and OIG believe that the
evidence obtained provides a reasonable basis for the findings and conclusions represented in
this report.

       We used the following laws, regulations and policies, to evaluate the adequacy of the
controls in place at the Department:

          OMB Memorandums M-02-01, M-04-04, M-06-19, and M-10-15.
          Department policies and procedures.
          Federal laws, regulations, and standards (such as the Computer Security Act of 1987,
           FISMA, and OMB Circular A-130, Appendix III.)
          National Institute of Standards and Technology (NIST) Special Publications, Federal
           Information Systems Processing Publications (FIPS), other applicable NIST
           publications, and industry best practices.

      The review evaluated the Department‟s information security program policies,
procedures, and processes in the following areas:

          System inventory.
          Risk management framework (formerly Certification & Accreditation).
          Security configuration management.
          Incident response and reporting.
          Security training.
          Plans of action and milestones (POA&M).
          Remote access.

                                                                                                21
                                       UNCLASSIFIED


          Account and identity management.
          Continuous monitoring.
          Contingency planning.
          Oversight of contractor systems.

       The audit covered the period October 1, 2009, to September 30, 2010. During the
fieldwork, we took the following actions:

      Determined the extent to which the Department‟s information security plans,
       programs, and practices complied with FISMA requirements; applicable Federal laws,
       regulations, and standards; relevant OMB Circular A-130, Appendix III, processes
       and reporting requirements; and NIST and FIPS requirements.

      Reviewed all relevant security programs and practices to report on the effectiveness of
       the Department‟s agency-wide information security program in accordance with OMB‟s
       annual FISMA reporting instructions. The evaluation approach addressed OMB
       Memorandum M-10-15, FY 2010 Reporting Instructions for the Federal Information
       Security Management Act and Agency Privacy Management, which outlines changes to
       both reporting processes and changes to the questions.

      Assessed programs for monitoring of security policy and program compliance and
       responding to security events (that is, unauthorized changes detected by intrusion
       detection systems).

      Performed testing of major systems at the discretion of OIG. We tested 30 systems for
       our sample.

      Assessed the adequacy of internal controls related to the areas audited. Significant
       deficiencies identified during the review are reported in the report.

      Evaluated the Department‟s remedial action taken to address the previously reported
       Information Security Program control weaknesses identified in OIG‟s report Review of
       the Information Security Program at the Department of State (AUD/IT-10-10, Nov.
       2009).




                                                                                              22
                                        UNCLASSIFIED


                                                                                       Appendix B
       Follow-up of Recommendations From the FY 2009 FISMA Report
        The review team reviewed actions implemented by management to mitigate the findings
identified in the FY 2009 FISMA report. The current status of each of the recommendations is as
follows:

 Recommendation 1: The Chief Information Security Officer, Bureau of Information
 Resource Management, should work with systems owners to identify critical and volatile
 controls that should be tested for each application and system; expand the quality control
 program to include analysis of how well certification testing addresses critical, volatile, and
 inherited controls; and ensure all controls are tested over a 3-year C&A [Certification and
 Accreditation] cycle.

 2010 Status: Partially implemented. The Bureau of Information Resource Management,
 Office of Information Assurance (IRM/IA), has updated the Annual Control Assessment
 Toolkit to incorporate the changes regarding Critical and Volatile Controls. The Annual
 Control Assessment exit criteria checklist has been modified to advise the reviewer to be
 especially vigilant in reviewing all of these controls.

 Recommendation 2: The Chief Information Security Officer, Bureau of Information
 Resource Management, and systems owners should supplement the current information
 provided in the C&A Main Toolkit and Inventory Toolkit to include additional guidance for
 annual testing of critical and volatile controls and be more proactive in reviewing Systems
 Security Plans and test results to ensure compliance with the methodology in the C&A
 Toolkits.

 2010 Status: Closed. Annual Control Assessment Toolkit was modified to include
 information on the rationale for selecting Critical &Volatile Controls at the Department
 level. A note was added indicating that the Department has identified CA-3 as a mandatory
 critical control. Main Certification and Accreditation Toolkit was also modified to provide
 more guidance to system owners.

 Recommendation 3: The Chief Information Security Officer, Bureau of Information
 Resource Management, and systems owners should update the Contingency Plan (CP)
 Toolkit to include requirements that systems owners should review and revise CP following
 CP failed test results, create POA&M [Plans of Action and Milestones] for failed CP control
 tests, and include verification by the Office of Information Assurance that systems owners
 are complying with CP Toolkits and methodology.

 2010 Status: Closed. Improved guidance was provided in the Contingency Plan Toolkit and
 the exit checklist.




                                                                                                   23
                                      UNCLASSIFIED



Recommendation 4: The Chief Information Security Officer, Bureau of Information
Resource Management, and the Senior Coordinator for Security Infrastructure Directorate
should work in an initiative for end-to–end configuration management which will provide a
secure operating environment, centralized management of enterprise workstations and server
configurations, and implementation of central patch management. Create an Information
Security Architecture that outlines information security responsibility for the Department of
State‟s decentralized information security environment.

2010 Status: This is a repeat recommendation from the FY 2009 report. It has become
Recommendation 7 (Finding E) in the FY 2010 report.

Recommendation 5: The Chief Information Security Officer, Bureau of Information
Resource Management, should work with systems owners to accomplish the following:

      Record and report systemic security weaknesses identified through the iPost/ site
       Scoring process as POA&M actions to ensure that these weaknesses are tracked,
       prioritized, and remediated.

      Report POA&M actions on a quarterly basis for sites that have low scores, requiring
       them to raise those scores.

      Report POA&M actions for risk covered by iPost scoring “exceptions.”

2010 Status: Closed. The pilot POA&M Grading Memorandum has been created. The
systemic weaknesses and exceptions data are captured in the POA&M.

Recommendation 6: The Chief Information Security Officer, Bureau of Information
Resource Management, should work with systems owners to implement a method that
provides timely and complete updates to the POA&M database. Validate the information in
the Department POA&M database, and review the Corrective Action Plan report before it is
submitted to OMB.

2010 Status: This is a repeat recommendation from the FY 2009 report. It has become
Recommendation 3 (Finding C) in the FY 2010 report.

Recommendation 7: The Chief Information Officer, Bureau of Information Resource
Management and systems owners should work together to develop, publish, and implement
detailed Standard Operating Procedures (SOP) for addressing Information Technology (IT)
audit related weaknesses and findings.

Status: Closed. An SOP was created.




                                                                                                24
                                       UNCLASSIFIED


Recommendation 8: The Director of the Office of Computer Security, Bureau of
Diplomatic Security in coordination with the Director of the Foreign Service Institute should
implement methods to globally enforce the security awareness policies and enhance existing
methods to identify users who should take the Cyber Security Awareness Training Course.

2010 Status: This is a repeat recommendation from the FY 2009 report. It has become
Recommendations 4 and 5 (Finding D) in the FY 2010 report, of which both
recommendations are closed.

Recommendation 9: The Bureau of Diplomatic Security, Assistant Director of Training, the
Bureau of Information Resource Management, Chief Information Officer, and the Bureau
system owners should improve methods to identify individuals with significant security
responsibilities, ensure that they take the required training every 3 years, record the training
records in the Office of Personnel Management-approved centralized system, and provide
management with tools to monitor compliance with the training requirement.

2010 Status: This is a repeat recommendation from the FY 2009 report. It has become
Recommendation 6 (Finding D) in the FY 2010 report.

Recommendation 11 (from FY 2008): The Chief Information Officer should establish a
process to monitor and validate security awareness training provided to those individuals
without access to Department networks.

2010 Status: Open. The Department is in the process of developing a program.




                                                                                                   25
                                            UNCLASSIFIED


                                                                                                                      Appendix C


                                                                              United States Ocpllrtment or State
                                                                                            Department of  . tate

                                                                              Ch ie/
                                                                                  e[ln/armUfim,O/ji
                                                                                    ln[urmul; on O[jict:e r
                                                                              In/ormation Rce~fl
                                                                              In/ormati()n   \oururce
                                                                                                   ct! Munu
                                                                                                       MunuKC!nr
                                                                                                            /:emee nl
                                                                                                                   nt

                                                                              Wu s /ri"K'mf , D. C.l
                                                                              ,Yu..\/,;nKlm"D        0510(J-63
                                                                                                 C. 105]   -63 11
                                                                               Nov e mber 8, 20 I 0
                                                                               November

UNCLASS
UNC LASSIFI
        IFI E D
MEMORANDUM
MEM O RAND UM

TO::
TO               OIG - Mr. Ha ro ld W.. Geeise
                                           isell

F RO
  ROMM:                Suss an H..
                 IRM - Su                Sw~
SU BJ ECT : De partm ent Re
SUBJECT:                   Ress po nse 10 Draft
                                       to Dr        po rt o n R evie
                                             aft Re port        eview     Departm
                                                                     w of O partmeelll
                                                                                   nt of
                                                                                       of
            Stat e Sec
                   Secuurity Prog ram

R EF
  EF::           OIIG
                    G M e mo Da te d No v . 1I , 20 10
                                                    I 0 S ubject: Dr                   eviie w of
                                                                  Draaft Re port o n R ev
                 Departm
                   partmeent of State Sec
                                      Security
                                          urity Pr
                                                Prog
                                                   ogram
                                                     ram

Thank
Th ank yo u fo r th  thee o pp o rtunity
                            ppor  tunit y to prov
                                               provid idee c o mm
                                                               mmee ntntss o n the draft F ISMA Report for
20 10.. O ur re s pon
                    po nse
                         se to the a nnual
                                       nnual FISMA rev      review
                                                                iew is a lltt ac
                                                                              ached
                                                                                 hed , and was coo  coordin
                                                                                                          rdin ated
with
wi th t he Bur
            Burea eauu o f Di ploo m a ti c Sec
                           Dipl             Securit
                                                  urityy , Bureau o f Administ
                                                                         Administrra ti o n , Bur
                                                                                                Bureaea u o f
Humaa n Reso u rces a nd th e Fo reig
Hum                                        eignn Se
                                                  Serv    ce In
                                                     rviice     s titute
                                                              Inst itute . Ple  ase co nsi
                                                                            Please       s idd e r thi
                                                                                                   thiss a
con
co nso
    solid
        lidaa te d repl
                    eplyy 10
                          to yo u r re
                                    reququeses t.

Wee have focused o ur co
                      comm
                         mme
                           ent
                             ntss o n wheth
                                      w hethe
                                            er or nO
                                                   oIt th
                                                       thee Department accep
                                                                       acceptts
                                                                              s the
 ecommend
reco mmendaa tion as part o f thi     nnual F ISMA a udit
                              thiss a nnual          udit,, as requested .

When we agreed withwi th a re comm
                              co mmendati
                                    endatio  o n , we h a ve described
                                                                desc ribed how we p lan to cl
                                                                                           close
                                                                                              ose
it. We p rop
         ropose
             ose the
                  hese
                     se reco
                         ecomm    endati o nss be co
                              mmendation           con    idee re d resol
                                                      n s id        resolve
                                                                          ved
                                                                            d.

With
Wi th regard
       ega rd to th
                  thee fac
                        actu
                           tu a lit
                                li tyy o f the det
                                               detai
                                                   ai le d fi
                                                           fmdin
                                                              nd ings,
                                                                   gs, the Depanment'
                                                                            Department' s re
                                                                                          ress pons
                                                                                                onsee
primarillyy focused
primari               upo
            foc used up  o n those iss  issues         we re ma te rial
                                            ues th a t were         ri al to Recommend    tio ns due to
                                                                             Recommendaa tions
o ur mutual desir
            desiree to g i ve th
                              thee Sec
                                   Secret       time fo r review of thi s resspo nse.
                                       ret ar y lime

We esesppeci
         ecially
             all y a pprec
                     ppreciiate the
                                th e professiona lilissm o f M s. Kl
                                                                  Klemstine
                                                                     emstine th
                                                                              through
                                                                                ro ug ho
                                                                                       o ut thi
                                                                                             thiss
rev iew.. We loo
review           ookk forwa
                       orward rd to planning
                                     plann ing th
                                               thee 201100 review wiwitth the meember
                                                                                 mbe rss of
                                                                                          o f yo ur
ltea
  eamrn at yo ur co
           your     nve nience
                 convenien  ce..




                                                                                                                              26
                             UNCLASSIFIED




                              UNCLASSIF IED
                              UNCLASSIFIED
                                      2
Attachm ent: Department Response to Draft Report on Review of Department of
Attachment:
             State Security Program




                              UNCLASSIFI ED
                              UNCLASSIFIED




                                                                              27
                                      UNCLASSIFIED


   Department Response to Draft Report on Review of Department of State Security Program


FISMA Inventory:

Summary Finding: The Department’s inventory management processes and procedures do
not ensure that an accurate inventory of FISMA reportable systems is maintained.
Without an accurate FISMA system inventory list, the Department’s process to support
information resources management for technology planning, budgeting, and acquisition
may be hampered.

Recommendation 1. We recommend that the Chief Information Officer verify the FISMA
systems inventory list to the Information Technology Asset Baseline to ensure that all
information technology systems are accurately accounted for.

Department Response: We accept this recommendation and request that it be closed. – We
are pleased the OIG found all systems needed in inventory were present. Based upon the OIG‟s
findings related to this Recommendation, namely the Department‟s inclusion of retired systems
in its asset and FISMA inventory, the Recommendation should be closed. As a matter of policy,
retired systems are not removed from the asset inventory (ITAB), but marked as retired, when
appropriate. This ensures maintenance of historical records. The closure of the recommendation
is warranted because there is no prohibition of inclusion of retired systems in inventory. The
Department would expect to remove retired systems in FISMA inventory in the next quarter in
which action such as an annual test or C&A was required for that system. Having the system
remain in inventory until this trigger event causes review (and change to retired status) has no
harmful effect on security. The Department would be happy to meet with OIG staff to discuss
how we might improve this process. We recommend that the recommendation be closed.


Risk Management Framework:

Summary Finding: The security authorization process was not performed on all
contractor systems, and the security authorization packages had expired for four systems.
These conditions weaken the Department’s risk management framework because changes
within the systems and the systems’ control environment may introduce new risks and
vulnerabilities into the Department’s environment.

Recommendation 2. We recommend that the Chief Information Security Officer ensure
that systems operated by a contractor, including systems rated low cost and low impact, go
through the security authorization process, including completion of a risk assessment and
implementation of necessary security controls, and that security authorization packages
are completed on a timely basis.

Department Response: Request Revision to Recommendation. – The Department requests the
Recommendation and findings be revised to remove references to low-cost/low-impact systems.
NIST SP 800-37 gives federal agencies considerable discretion in the selection of system
accreditation boundaries. Moreover, OMB A-130 only requires certification and accreditation

                                                                                              28
                                      UNCLASSIFIED


(vice control definition and testing) for major information systems. Consistent with OMB and
accepted by previous OIG reviews, the Department has defined low-impact/low-cost systems in
such a manner they are included within the accreditation boundary of the network on which they
run. The Department can provide detailed documentation and justification of this decision,
which has been used since 2007. If the Recommendation is revised as requested, the Department
will request closure of the recommendation when all applicable systems, as defined by the
Department have completed C&A.


Plans of Actions and Milestones:

Summary Finding: The Department did not prioritize the severity of security weaknesses,
consistently record required resources for remediation of security weaknesses, and update
remediation schedules to reflect actual performance, all of which impeded the
Department’s ability to assess and monitor the progress of corrective actions.

Recommendation 3. We recommend that the Chief Information Officer develop criteria
for system owners to prioritize Plan of Action and Milestones (POA&M) corrective actions;
develop a process to periodically update the resources recorded in the POA&Ms; and
update, in the POA&Ms, those completion dates for corrective actions that have expired.

Department Response: Request Revision to Recommendation. – The Department of State
POA&M system prioritizes all findings as high, moderate and/or low. Thus, the Department
requests the OIG remove references to a lack of prioritization from its Findings and
Recommendation. Given the changes to reporting requirements under cyber-scope, the
Department will seek DHS (with OIG, if the OIG so desires) clarification on the desired
timeliness and level of aggregation of these updates, and request closure of this revised
Recommendation when the Department‟s performance meets current DHS requirements.


Security Awareness Training:

Summary Finding: Four of 25 employees tested had completed the initial information
security awareness training. The Department did not identify all employees who had
significant security responsibilities and provide specialized training, as required by NIST.
One employee in our test of employees hired in FY 2010 did not have the required security
clearance.

Recommendation 4. We recommend that the Chief Information Officer, the Foreign
Service Institute, and the Bureau of Diplomatic Security implement methods to enforce the
security awareness policy to suspend a user’s access if the user has not taken the Cyber
Security Awareness course within the required timeframe.

Recommendation 5. We recommend that the Chief Information Officer, the Foreign
Service Institute, and the Bureau of Diplomatic Security complete the Department of
State’s corrective action plan (which involves Active Directory, security awareness

                                                                                            29
                                       UNCLASSIFIED


completion data, and iPost) to enforce the security awareness policy to suspend a user’s
access if the Cyber Security Awareness course is not taken within the required timeframe.

Department Response: Request Recommendation Be Closed. – The Department agrees that
the means for ensuring completion of awareness training should be strengthened. However,
examination of the data provided regarding the four users found not to have completed
awareness training indicates that of the four, only one user had not taken the training. Of the
three remaining users, two had expired accounts and one did not yet have an active account.

The Department has recently implemented the corrective action plan by taking the following
actions: (1) the PS800 Annual Cyber Security Awareness course is being updated to
automatically reset user accounts to expire 365 days from successful completion of the course;
and (2) PS800 course completion data is being posted in iPost and incorporated into site risk
scoring. This allows the ISSOs to identify users who are not in compliance and enforce
Department policy. Given these actions, the Department requests the recommendation be closed
and the associated Executive Summary language be revised.

Recommendation 6. [6.1:] We recommend that the Chief Information Officer and the
Bureau of Diplomatic Security define and identify personnel who have significant security
responsibilities and ensure that they receive the appropriate training. [6.2:]Also, the
Student Training Management System should be modified to capture other training
systems, such as those paid for by the Department of State, to meet continuing professional
education requirements.

Department Response for 6.1: Agree with Recommendation. – The Department agrees with
this part of the Recommendation. The Department will assign primary responsibility for
identification of personnel who have significant security responsibilities to the Bureau of
Diplomatic Security, and the Bureau of Information Resource Management will be consulted for
policy guidance. DS has set aside funding in FY11 to conduct an analysis of the best method for
identifying and tracking these personnel.

Department Response for 6.2: Agree with Recommendation. – The Student Training
Management System is the only official authorized management training system for the
Department of State records and includes training funded by the Department. HR‟s GEMS
provides a mechanism called Employee Profile for individuals to record other training taken.
Duplication of either function is unnecessary. In determining if those with significant security
responsibilities have met the training and development criteria, the Department will make use of
these existing resources and determine the most cost-effective method of extracting and
presenting all relevant data from these systems. This will be done after 6.1 is completed. Upon
completion of Part 6.2, the Department will request closure of this Recommendation.




                                                                                                  30
                                      UNCLASSIFIED


Security Configuration Management:


Summary Finding: Twenty-four of 25 systems tested were not compliant with the security
configuration guidance provided by the Bureau of Diplomatic Security (DS), and seven of
25 systems did not have the vendor-required critical or high priority software patches to be
installed. Without sufficient configuration management, the Department’s data may be
exposed to loss of integrity and confidentiality because configuration standards may not be
implemented.

Recommendation 7. We recommend that the Chief Information Officer complete the end-
to-end configuration management initiative, including implementation of the standard
operating environment.

Department Response: Agree with this Recommendation. – The end-to-end configuration
management initiative has several elements including centralization of patching and automated
enforcement of configuration standards. Patch support has now been centralized to over half of
the Department with full coverage scheduled for completion in fiscal year 2011. Automated
enforcement of configuration standards is currently being piloted with broader deployment
expected over the next two fiscal years. Further, the Department‟s continuous monitoring has
brought significant results. The iPost risk scoring mechanisms are designed to score systems
against the recommended and mandatory standards for the owners, who retain responsibility for
the compliance and patching of their systems. Any individual system may have some minor
variations and not represent a substantial cyber risk, but will be flagged by our risk scoring
methodology.

Without knowing the cumulative risk score for the 25 sampled systems, the risk cannot be
properly assessed. It should be noted this approach has significantly reduced the number of
configuration and patch problems over the last two years (by 90%). The Department‟s policy
and configuration guidance are part of a Risk Management approach balancing business need
with cyber risk. The Department will request closure when implementation of these initiatives
has made significant progress.


OpenNet Everywhere:

(b)(2)(b)(5)




Recommendation 8. We recommend that the Chief Information Officer (b)(2)(b)(5)




                                                                                                31
                                       UNCLASSIFIED


(b)(2)(b)(5)                                                      and document the
necessary risk assessment to determine the electronic authentication level for ONE.
completion data, and iPost) to enforce the security awareness policy to suspend a user’s
access if the Cyber Security Awareness course is not taken within the required timeframe.

Department Response: Request Recommendation Be Closed. – The Department agrees that
the means for ensuring completion of awareness training should be strengthened. However,
examination of the data provided regarding the four users found not to have completed
awareness training indicates that of the four, only one user had not taken the training. Of the
three remaining users, two had expired accounts and one did not yet have an active account.

The Department has recently implemented the corrective action plan by taking the following
actions: (1) the PS800 Annual Cyber Security Awareness course is being updated to
automatically reset user accounts to expire 365 days from successful completion of the course;
and (2) PS800 course completion data is being posted in iPost and incorporated into site risk
scoring. This allows the ISSOs to identify users who are not in compliance and enforce
Department policy. Given these actions, the Department requests the recommendation be closed
and the associated Executive Summary language be revised.

Recommendation 6. [6.1:] We recommend that the Chief Information Officer and the
Bureau of Diplomatic Security define and identify personnel who have significant security
responsibilities and ensure that they receive the appropriate training. [6.2:]Also, the
Student Training Management System should be modified to capture other training
systems, such as those paid for by the Department of State, to meet continuing professional
education requirements.

Department Response for 6.1: Agree with Recommendation. – The Department agrees with
this part of the Recommendation. The Department will assign primary responsibility for
identification of personnel who have significant security responsibilities to the Bureau of
Diplomatic Security, and the Bureau of Information Resource Management will be consulted for
policy guidance. DS has set aside funding in FY11 to conduct an analysis of the best method for
identifying and tracking these personnel.

Department Response for 6.2: Agree with Recommendation. – The Student Training
Management System is the only official authorized management training system for the
Department of State records and includes training funded by the Department. HR‟s GEMS
provides a mechanism called Employee Profile for individuals to record other training taken.
Duplication of either function is unnecessary. In determining if those with significant security
responsibilities have met the training and development criteria, the Department will make use of
these existing resources and determine the most cost-effective method of extracting and
presenting all relevant data from these systems. This will be done after 6.1 is completed. Upon
completion of Part 6.2, the Department will request closure of this Recommendation.




                                                                                                  32
                                      UNCLASSIFIED


Security Configuration Management:


Summary Finding: Twenty-four of 25 systems tested were not compliant with the security
configuration guidance provided by the Bureau of Diplomatic Security (DS), and seven of
25 systems did not have the vendor-required critical or high priority software patches to be
installed. Without sufficient configuration management, the Department’s data may be
exposed to loss of integrity and confidentiality because configuration standards may not be
implemented.

Recommendation 7. We recommend that the Chief Information Officer complete the end-
to-end configuration management initiative, including implementation of the standard
operating environment.

Department Response: Agree with this Recommendation. – The end-to-end configuration
management initiative has several elements including centralization of patching and automated
enforcement of configuration standards. Patch support has now been centralized to over half of
the Department with full coverage scheduled for completion in fiscal year 2011. Automated
enforcement of configuration standards is currently being piloted with broader deployment
expected over the next two fiscal years. Further, the Department‟s continuous monitoring has
brought significant results. The iPost risk scoring mechanisms are designed to score systems
against the recommended and mandatory standards for the owners, who retain responsibility for
the compliance and patching of their systems. Any individual system may have some minor
variations and not represent a substantial cyber risk, but will be flagged by our risk scoring
methodology.

Without knowing the cumulative risk score for the 25 sampled systems, the risk cannot be
properly assessed. It should be noted this approach has significantly reduced the number of
configuration and patch problems over the last two years (by 90%). The Department‟s policy
and configuration guidance are part of a Risk Management approach balancing business need
with cyber risk. The Department will request closure when implementation of these initiatives
has made significant progress.


OpenNet Everywhere:




Recommendation 8. We recommend that the Chief Information Officer




                                                                                                33
                                       UNCLASSIFIED


                                                                  and document the
necessary risk assessment to determine the electronic authentication level for ONE.
Department Response: Agree with Recommendation. – The Department is currently replacing
ONE with a new system called Global OpenNet (GO) (b)(2)(b)(5)
                                                    We will request closure when GO has
been implemented and meets the intent of this recommendation.


Account Management:

Summary Finding: From a population of approximately 83,000 Active Directory accounts,
we found approximately 1,000 guest, test, and temporary accounts; 8,000 accounts that had
not been used (never logged on); and 600 accounts that had passwords that were set so that
they would not expire. Therefore, these accounts are susceptible to being compromised by
unauthorized users for unauthorized purposes.

Recommendation 9. We recommend that the Chief Information Officer enhance the Active
Directory account management automated tools to flag accounts that have not been used
within the past 60 days and ensure that all accounts are configured with passwords that
expire every 60 days.

Recommendation 10. We recommend that the Chief Information Officer ensure that
program managers and office managers annually review access privileges of users under
their supervision so that the number of guest, test, and temporary accounts and accounts
that have not been used is reduced.

Department Response: Agree with Recommendations 9 & 10. – Service accounts are critical
to the operations of systems and applications. These accounts are necessary but are strictly
administered and monitored. Deleting or expiring these accounts would have serious, negative
impact on operations. Shared accounts are often created to provide shared access to
organizational or functional mailboxes. These accounts are also strictly administered and
monitored. Individuals do log on using either type account, thus creating a sizable numbers of
accounts that never register a log-on. Flagging these accounts as directed by the applicable
Recommendation would be overly cumbersome and would prove of little security value.

However, in the interests of addressing the underlying issue, the continuous monitoring approach
takes the password expiring after 60 days into consideration. Any accounts not compliant with
this standard negatively impact site scores. This includes accounts with passwords set never to
expire. The Department believes this meets the second half of Recommendation 9. The
Department believes the „manager‟ field in Active Directory identifies the individual responsible
for all accounts, including service, guest, and test accounts and as such, the Department will use
this foundation to act upon Recommendation 10.
Personally Identifiable Information:

Summary Finding: We found six instances in which the Department did not report
personally identifiable information (PII) data incidents to the U.S. Computer Emergency

                                                                                                 34
                                        UNCLASSIFIED


Response Team (US-CERT) within 1 hour of suspecting or confirming a security breach, as
required by OMB. Failure to notify US-CERT within the required timeframe increases the
risk to individuals that their PII data may be misused. Also, the Department may be in
violation of Federal laws.

Recommendation 11. We recommend that the Bureau of Diplomatic Security implement
proper staff awareness through training and have shift supervisors, as part of the shift-
change procedures, ensure that personally identifiable information data incidents are
reported to the U.S. Computer Emergency Response Team within the required 1-hour
timeframe.

Department Response: Request Recommendation be Closed. – The Department is committed
to meeting the requirement of reporting PII data incidents to US-CERT as expeditiously as
possible and has explicitly stated as such in Department policy (5 FAM 460) and the Computer
Incident Response Team‟s (CIRT) standard operating procedures, which delineate in detail how
PII incident reports are handled internally and routed to US-CERT. The CIRT procedures are
designed to ensure that incoming reports of missing PII are reviewed and validated so as to avoid
false positives and address simultaneously any related network security issues. Once this
evaluation is completed, CIRT generates a PII ticket and relevant incident information is referred
to US-CERT within 1-hour.

During the course of this FISMA evaluation, CIRT undertook the following steps to further
enhance the Department‟s ability to review and report PII incidents:
          As of July 1, 2010 the CIRT team assigned an analyst to monitor the incident in-
             box for PII reports and assign incoming PII reports priority status for evaluation.
          DS is continuing to develop its new ticket tracking database which will enable
             CIRT to automatically designate incoming PII reports priority status.

Given these actions, the Department requests this recommendation be closed.


Continuous Monitoring Program:

Summary Finding: The scanning tools do not assess the Oracle configuration, the
Department’s most common database system, for configuration control weaknesses that
could adversely impact application access controls. Scanning results for routers, firewalls,
and Demilitarized Zone servers were not available in iPost; therefore, the results were not
used in risk scoring.

Recommendation 12. We recommend that the Chief Information Officer develop a
continuous monitoring strategy.
Department Response: Request Modification of Recommendation and Associated Text. – The
Department has previously provided documentation to the OIG that the Department‟s strategy
includes these elements. Moreover, the Department performs this kind of monitoring during
annual testing and C&A, as required. The Department requests that the Recommendation be
revised to say that “the Risk Scoring Program implement the Department‟s CM strategy to

                                                                                                   35
                                       UNCLASSIFIED


include scanning of databases, firewalls, routers, and switches on a more frequent basis and
inclusion of the results into its dashboard”. The Department also notes that the level and
frequency of continuous monitoring being requested is not required by FISMA or its associated
authorities.

Partial Finding: The SMART contingency plan is still in draft form because a secondary
(or backup) site for SMART has not been identified, causing the delay in finalizing the
contingency plan.

Recommendation 13. We recommend that the Chief Information Officer identify the
secondary site for the State Messaging and Archive Retrieval Toolset (SMART) system and
complete development of SMART’s system contingency plan.

Department Response: Agree with Recommendation. – The Department has identified ESOC
East as the secondary site for SMART. The Department is implementing our contingency plan
in stages. Stage 1 of the plan is complete and includes daily full backups of SMART data offsite
at ESOC East. Stage 2 of the plan will greatly reduce the length of time required to restore
SMART functionality offsite. SMART‟s contingency system design documentation has
successfully passed a peer review including external stakeholders. The design documentation
describes a contingency solution that will provide SMART functionality within hours of either a
planned or emergency failover. The completed contingency plan as well the contingency system
itself will be developed and tested by September 2011. Upon completion of the contingency
plan, the Department will request closure of this Recommendation.


Recommendation 14. We recommend that the Bureau of Administration review all
relevant information technology and professional services contracts to ensure that they
contain the required Department of State Acquisition Regulations information security
clauses.

Department Response: Agree with Recommendation. – The Bureau of Administration will
review contract processes to ensure contracts are reviewed prior to final signatures. Such
reviews will include whether or not the applicable provisions are included in relevant
information technology and professional service contracts. Upon completion of this review,
AQM will issue an updated Quality Assurance Plan and provide a copy to the OIG. Upon
documented establishment of these processes, the Department will request closure of the
Recommendation.
Recommendation 15. We recommend that the Bureau of Diplomatic Security, in
coordination with the Bureau of Administration, establish procedures to identify the total
number of contractors who have access to Department of State systems.

Department Response: Agree with Recommendation. – The Chief Information Officer has
developed a procedure to use Active Directory accounts to identify the total number of persons
(including contractors) who have access to the Department‟s network. Compliance with this
procedure is being enforced by a process of site scoring, which started on November 1, 2010.
Upon implementation of this process, the Department will request closure of this
Recommendation.

                                                                                                 36
